<html>
<title> - THE INTERNATIONAL SPACE STATION: ADDRESSING OPERATIONAL CHALLENGES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                    THE INTERNATIONAL SPACE STATION:
                   ADDRESSING OPERATIONAL CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 10, 2015

                               __________

                           Serial No. 114-30

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov
       
       
       
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-570 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEPHEN KNIGHT, California           MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama                   ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   EDDIE BERNICE JOHNSON, Texas
STEVE KNIGHT, California
LAMAR S. SMITH, Texas











                            C O N T E N T S

                             July 10, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    14
    Written Statement............................................    15

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    17
    Written Statement............................................    18

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    19
    Written Statement............................................    20

                               Witnesses:

Mr. Bill Gerstenmaier, Associate Administrator, Human Exploration 
  and Operations Mission Directorate, NASA
    Oral Statement...............................................    21
    Written Statement............................................    24

Mr. John Elbon, Vice President and General Manager, Space 
  Exploration, The Boeing Company
    Oral Statement...............................................    33
    Written Statement............................................    35

The Honorable Paul K. Martin, Inspector General, NASA
    Oral Statement...............................................    43
    Written Statement............................................    45

Ms. Shelby Oakley, Acting Director, Acquisition and Sourcing 
  Management, Government Accountability Office
    Oral Statement...............................................    50
    Written Statement............................................    52

Dr. James A. Pawelczyk, Associate Professor of Physiology and 
  Kinesiology, The Pennsylvania State University
    Oral Statement...............................................    68
    Written Statement............................................    70

Discussion.......................................................    81

             Appendix I: Answers to Post-Hearing Questions

Mr. Bill Gerstenmaier, Associate Administrator, Human Exploration 
  and Operations Mission Directorate, NASA.......................   100

Mr. John Elbon, Vice President and General Manager, Space 
  Exploration, The Boeing Company................................   146

The Honorable Paul K. Martin, Inspector General, NASA............   155

DMs. Shelby Oakley, Acting Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................   161

Dr. James A. Pawelczyk, Associate Professor of Physiology and 
  Kinesiology, The Pennsylvania State University.................   167
 
                    THE INTERNATIONAL SPACE STATION:
                   ADDRESSING OPERATIONAL CHALLENGES

                              ----------                              


                         FRIDAY, JULY 10, 2015

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Babin. The Subommittee on Space will come to 
order. Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time. Good morning. Welcome 
to today's hearing titled The International Space Station: 
Addressing Operational Challenges. In front of you are packets 
containing the written testimony, biographies, and Truth in 
Testimony disclosures for today's witnesses. I recognize myself 
for five minutes for an opening statement.
    Good morning. I'd like to welcome everyone to our hearing 
today, and I want to thank our witnesses for taking time to 
appear before our Committee. Since 2013, the ISS program has 
experienced a number of challenges. As a can-do nation, America 
has always been committed to identifying challenges, addressing 
them, and advancing to reach out and reach our goal and 
destiny. We have that same commitment with the ISS. During this 
time, astronauts have experienced water leaks in their suits 
three times, with one incident occurring during a spacewalk. On 
April the 26th, 2013, an unmanned Russian Progress cargo 
vehicle damaged a laser radar reflector when docking with the 
ISS. On January the 14th, 2015, a false alarm of an ammonia 
leak caused the crew to retreat into the Russian segment. On 
October 28th, 2014, an Orbital Sciences unmanned cargo launch 
failed just after launch. On April the 28th, 2015, a separate 
Russian Progress cargo vehicle failed to reach the ISS. On June 
the 7th, 2015, a planned re-boost of the ISS using a docked 
Progress vehicle failed but eventually was successful after 
troubleshooting. On June the 10th, 2015, a visiting Soyuz 
vehicle unexpectedly fired its engines without being commanded. 
Most recently, on June the 28th, 2015, a SpaceX unmanned cargo 
launch failed as well.
    All of these incidents highlight the challenges of 
operating in space, and they remind us that NASA's contractors, 
engineers, and astronauts must be ever vigilant. These events 
have challenged ISS operations, but the fact that the program 
was able to effectively respond to these set-backs is a 
testament to NASA, the ISS partners, and the contractors. We do 
not know the root causes of some of the accidents yet, but once 
we have more information, we will be better suited to review 
those individual events. In the meantime, this hearing allows 
us to evaluate the operational status of the ISS, review 
efforts to utilize the unique asset, and assess the prospects 
for future operations.
    The ISS is one of the most complex and expensive man-made 
objects ever built. The American taxpayers currently invest 
approximately $3 billion dollars per year in this laboratory. 
We must ensure that every dollar is spent effectively and 
efficiently. The ISS offers a unique microgravity environment 
for scientists and engineers to utilize. NASA recently released 
its Benefits to Humanity publication this week detailing the 
many benefits that ISS provides back to our lives here on 
Earth. From advances in our understanding of human health and 
performance to our use of new materials to the utilization of 
robotics and satellites, the benefits we receive from ISS are 
many and diverse and remarkable.
    In addition to the benefits here on Earth the ISS offers 
the conditions necessary to prepare and develop critical 
technologies for deep space and long-duration human spaceflight 
missions. Successive NASA authorizations direct the 
administration to utilize the ISS for this purpose. The Human 
Research Program and Advanced Exploration Systems Program at 
NASA are on the cutting edge of developing the systems we need 
to send humans ever deeper into the Solar System than ever 
before. Right now, Captain Scott Kelly is on day 104 of his 
year-long mission to study the effects of long-duration human 
spaceflight.
    In addition to the utilization efforts of NASA's research 
programs, the NASA Authorization Act of 2005 designated part of 
the ISS as a National Lab and the NASA Authorization Act of 
2010 directed the administration to sign a cooperative 
agreement with a non-profit to manage it. NASA selected the 
Center for the Advancement of Science in Space, or CASIS, to 
lead this effort. The Government Accountability Office noted in 
a recent report that CASIS had made great strides in fulfilling 
the mandate under the law but that more work needed to be done 
to ensure that measurable progress was being made in a 
quantifiable manner. I hope to hear from NASA today that the 
agency is making progress towards answering this recommendation 
from GAO.
    As we keep an eye on the present operation and utilization 
of the ISS, we must also look to the future. Last year the 
administration announced support for the extension of the ISS 
program from 2020 to 2024. At present, federal law limits the 
life of the ISS to 2020. Absent action from Congress to extend 
it, the administration would be required to begin closeout of 
the program.
    There are many questions about the request for this 
extension. The bipartisan, House-passed NASA Authorization Act 
of 2015 requires the administration to provide a report to 
Congress on efforts by the administration to utilize the ISS 
and how to quantify benefits back to the nation for the 
required investment for this extension. It also requires the 
Administration to develop a government-wide utilization plan 
for the ISS to ensure that every minute the facility is in 
orbit we are doing what we can to get the most out of it. These 
reports are critical for Congress to understand the issues that 
inform whether to extend the ISS.
    This Committee has a responsibility to ensure that the 
American taxpayers are getting all that they can from every 
dollar they send to the federal government. I believe this 
investment is worthwhile and that the benefits far outweigh the 
cost. Support for the ISS and its operations and utilization is 
not a partisan issue. It is an American issue, and I look 
forward to working with my friends on the other side of the 
aisle and our partners in the space industry to understand how 
we can all meet the operational challenges facing the ISS 
program.
    [The prepared statement of Chairman Babin follows:]

              Prepared Statement of Subcommittee on Space
                          Chairman Brian Babin

    Good morning. I would like to welcome everyone to our hearing today 
and I want to thank our witnesses for taking time to appear before the 
Committee.
    Since 2013, the ISS program has experienced a number of challenges. 
During this time, astronauts have experienced water leaks in their 
suits three times, with one instance occurring during a spacewalk. On 
April 26, 2013, an unmanned Russian Progress cargo vehicle damaged a 
laser radar reflector when docking with the ISS. On January 14, 2015, a 
false alarm of an ammonia leak caused the crew to retreat into the 
Russian segment. On October 28, 2014, an Orbital Science's unmanned 
cargo launch failed just after launch. On April 28, 2015, a separate 
Russian Progress cargo vehicle failed to reach the ISS. On June 7, 2015 
a planned re-boost of the ISS using a docked Progress vehicle failed 
but eventually was successful after troubleshooting. On June 10, 2015, 
a visiting Soyuz vehicle unexpectedly fired its engines without being 
commanded. Most recently, on June 28, 2015, a SpaceX unmanned cargo 
launch failed as well.
    All of these incidents highlight the challenges of operating in 
space, and remind us that NASA's contractors, engineers, and astronauts 
must be ever vigilant. These events have challenged ISS operations, but 
the fact that the program was able to effectively respond to these set-
backs is a testament to NASA, the ISS partners, and the contractors. We 
do not know the root causes of some of the accidents yet, but once we 
have more information, we will be better suited to review those 
individual events. In the meantime, this hearing allows us to evaluate 
the operational status of the ISS, review efforts to utilize the unique 
asset, and assess the prospects for future operations.
    The ISS is one of the most complex and expensive man-made objects 
ever built. The American taxpayers currently invest approximately three 
billion dollars per year in this laboratory. We must ensure that every 
dollar is spent effectively and efficiently. The ISS offers a unique 
microgravity environment for scientists and engineers to utilize. NASA 
recently released its "Benefits to Humanity" publication this week 
detailing the many benefits that ISS provides back to our lives here on 
Earth. From advances in our understanding of human health and 
performance to our use of new materials to the utilization of robotics 
and satellites, the benefits we receive from the ISS are many and 
diverse.
    In addition to the benefits back on Earth the ISS offers the 
conditions necessary to prepare and develop critical technologies for 
deep space and long-duration human spaceflight missions. Successive 
NASA Authorizations direct the Administration to utilize the ISS for 
this purpose. The Human Research Program and Advanced Exploration 
Systems program at NASA are on the cutting edge of developing the 
systems we need to send humans deeper into the Solar System than ever 
before. Right now, Captain Mark Kelly is on day 104 of his year-long 
mission to study the effects of long duration human spaceflight
    In addition to the utilization efforts of NASA's research programs, 
the NASA Authorization Act of 2005 designated part of the ISS as a 
National Lab and the NASA Authorization Act of 2010 directed the 
Administration to sign a cooperative agreement with a non-profit to 
manage it. NASA selected the Center for the Advancement of Science in 
Space, or CASIS, to lead this effort. The Government Accountability 
Office noted in a recent report that CASIS has made great strides in 
fulfilling the mandate under the law but that more work needed to be 
done to ensure that measurable progress was being made in a 
quantifiable manner. I hope to hear from NASA today that the agency is 
making progress towards answering this recommendation from GAO.
    As we keep an eye on the present operation and utilization of the 
ISS, we must also look to the future. Last year the Administration 
announced support for the extension of the ISS program from 2020 to 
2024. At present, federal law limits the life of the ISS to 2020. 
Absent action from Congress to extend it, the Administration would be 
required to begin closeout of the program.
    There are many questions about the request for this extension. The 
bipartisan, House-passed NASA Authorization of 2015 requires the 
Administration to provide a report to Congress on efforts by the 
Administration to utilize the ISS and how to quantify benefits back to 
the nation for the required investment for extension. It also requires 
the Administration to develop a government-wide utilization plan for 
the ISS to ensure that every minute the facility is in orbit we are 
doing what we can to get the most out of it. These reports are critical 
for Congress to understand the issues that inform whether to extend the 
ISS.
    This Committee has a responsibility to ensure that the American 
taxpayers are getting all that they can from every dollar they send to 
the federal government. I believe this investment is worthwhile and 
that the benefits far outweigh the cost. Support for the ISS and its 
operations and utilization is not a partisan issue, it is an American 
issue and I look forward to working with my friends on the other side 
of the aisle and our partners in the space industry to understand how 
we can all meet the operational challenges facing the ISS program.

    Chairman Babin. I now recognize the Ranking Member, the 
gentlelady from Maryland for an opening statement.
    Ms. Edwards. Thank you very much, Mr. Chairman, and good 
morning. Welcome to our distinguished panel of witnesses. I 
appreciate holding this hearing now, The International Space 
Station: Addressing Operational Challenges, and as I listened 
to the Chairman, I'm reminded that the challenges that NASA 
faces and the agency faces in operating the International Space 
Station, I would be more concerned if we weren't able to 
overcome some of those challenges, and I think it's a credit to 
the crew and the partners that that is true.
    About a year ago, I and the members of our Committee sat in 
this room, looked on the screen there, and had the opportunity 
to communicate with our NASA crew that was aboard the 
International Space Station, including NASA astronaut Rick 
Wiseman who's from Maryland. I would note that I promised him 
crab cakes, and unfortunately one of those accidents that the 
Chairman referred to destroyed my crab cake delivery. But Rick 
Wiseman visited with me in my office just a couple of weeks ago 
and we made okay on that.
    What happens when you connect real-time with our astronauts 
who are living, working, and carrying out research in this 
amazing laboratory that's orbiting 250 miles above us every 90 
minutes is really quite an inspiration.
    Thanks to NASA, the crews aboard the ISS, and so many 
school children have also had the opportunity to ask questions 
and learn about human spaceflight through similar downlink 
events that we experienced here in this room. Yet, in the 
thrill of seeing and hearing those who inhabit our on-orbit 
laboratory, we can sometimes forget just how difficult, 
demanding, and risky it is to maintain and operate the 
International Space Station, because sometimes we think it's 
just ordinary, and it turns out that it's rather extraordinary. 
Orbital debris, malfunctions to key systems both internal and 
external to the ISS, and human health hazards pose significant 
risks to the ISS facility and its crew. The unfortunate loss of 
the SpaceX-7 cargo resupply mission less than two weeks ago, 
along with the earlier losses of the Russian Progress and 
Orbital ATK cargo missions over the past eight months, are 
again stark reminders of the risks and challenges that NASA and 
its partners have to face.
    The successful management of these risks for more than 15 
years is a testament to NASA and its industry and to 
international partners.
    I am confident that SpaceX, Orbital ATK, in collaboration 
with the FAA and NASA, will identify and resolve the problems 
that led to the launch failures and will resume cargo resupply 
to the ISS as soon as it's safe to do so. And in fact, the ISS 
actually has been resupplied through its partners.
    Mr. Chairman, we don't have any time to spare. The ISS is a 
temporary facility. It's currently authorized for operations as 
you've described through 2020, and given that the operations 
cost about $3 billion in taxpayer dollars every year, a cost 
that is actually projected to increase, coupled with the 
challenges involved in sustaining operations, we really need to 
ensure that our vision for the ISS is clear and our goals and 
objectives for using this unique facility are aligned with that 
vision.
    I'm pleased that the number of ISS users has actually 
grown. We've had concerns about that raised here in this 
Committee. In addition to NASA researchers and NASA-supported 
academic researchers, the ISS National Laboratory management 
entity, CASIS, has drawn new commercial users including 
pharmaceutical companies to the ISS.
    However, while the range of ISS uses is expanding, the 
resources to support those activities are not. Funding for the 
ISS research represents a mere 12 percent of the overall ISS 
budget. In addition, constraints on cargo transportation to the 
International Space Station, as well as available power and 
precious crew time, limit what research can be accomplished at 
the Station.
    And in that regard, I know that many of us want to 
understand the implications of cargo resupply interruptions on 
planned ISS research, crew operations, and the sustainability 
of the Station.
    In addition, Mr. Chairman, there's critical work to be done 
on the ISS in the areas of human health research and technology 
development that needs to be carried out if we are going to 
make progress toward the long-term goal of sending humans to 
Mars.
    In January 2014 the Obama Administration proposed to extend 
ISS operations until at least the year 2024. The Administration 
has three rationales for the extension: to complete ISS 
research that supports long-duration human missions beyond low-
Earth orbit; to garner societal benefits from ISS research, 
some of which we see here; and to give NASA and private 
partners more time to transition to commercial cargo and crew, 
allowing NASA to focus on human exploration of deep space.
    Today's hearing provides us the opportunity to examine 
those rationales in the context of the cost and risks that NASA 
and its international partners will face in sustaining the ISS 
for that length of time.
    So Mr. Chairman, we have a lot to discuss this morning, and 
I want to thank our witnesses again for being here and with 
that I yield back.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                    Ranking Member Donna F. Edwards

    Good morning, and welcome to our distinguished panel of witnesses. 
Thank you, Mr. Chairman, for holding this hearing on ``The 
International Space Station: Addressing Operational Challenges.''
    About a year ago, I and the members of our Committee sat in this 
room and had the opportunity to communicate with our NASA crew aboard 
the ISS, including NASA astronaut Reid Wiseman from Maryland. 
Connecting real-time with our astronauts who are living, working, and 
carrying out research in a laboratory orbiting 250 miles above us every 
90 minutes is an inspiration.
    And thanks to NASA and the crews aboard the ISS, many U.S. school 
children have the same opportunity to ask questions and learn about 
human spaceflight through similar downlink events. Yet, in the thrill 
of seeing and hearing from those who inhabit our on-orbit laboratory, 
we can sometimes forget just how difficult, demanding, and risky it is 
to maintain and operate the ISS.
    Orbital debris, malfunctions to key systems both internal and 
external to the ISS, and human health hazards pose significant risks to 
the ISS facility and its crew. The unfortunate loss of the SpaceX-7 
cargo resupply mission less than two weeks ago, along with the earlier 
losses of the Russian Progress and Orbital ATK cargo missions over the 
past 8 months, are stark reminders of the risks and challenges that 
NASA and its partners continue to face.
    The successful management of these risks for more than fifteen 
years is a testament to NASA and its industry and international 
partners.
    I am confident that SpaceX and Orbital ATK, in collaboration with 
the FAA and NASA, will identify and resolve the problems that led to 
the launch failures and will resume cargo resupply to the ISS as soon 
as it is safe to do so.
    Because, Mr. Chairman, we don't have time to spare.
    The ISS is a temporary facility that is currently authorized for 
operations through 2020. Given that ISS operations cost about $3 
billion taxpayer dollars per year--a cost that is projected to 
increase, I might add--coupled with the challenges involved in 
sustaining operations, we need to ensure that our vision for the ISS is 
clear and our goals and objectives for using this unique facility are 
aligned with that vision.
    Mr. Chairman, I'm pleased that the number of ISS users has grown. 
In addition to NASA researchers and NASA-supported academic 
researchers, the ISS National Laboratory management entity, CASIS, has 
drawn new commercial users including pharmaceutical companies to the 
ISS.
    However, while the range of ISS uses is expanding, the resources to 
support those activities are not. Funding for ISS research represents a 
mere 12 percent of the overall ISS budget. In addition, constraints on 
cargo transportation to the ISS, as well as available power and 
precious crew time, limit what research can be accomplished on the 
Station.
    And in that regard, I know that many of us want to understand the 
implications of cargo resupply interruptions on planned ISS research, 
crew operations, and the sustainability of the ISS.
    In addition, Mr. Chairman, there is critical work to be done on the 
ISS in the areas of human health research and technology development 
that need to be carried out if we are going to make progress toward the 
long-term goal of sending humans to Mars.
    In January 2014, the Obama Administration proposed to extend ISS 
operations until at least the year 2024. The Administration has three 
rationales for the extension:

    <bullet>  To complete ISS research that supports long-duration 
human missions beyond low-Earth orbit;

    <bullet>  To garner societal benefits from ISS research; and

    <bullet>  To give NASA and private partners more time to transition 
to commercial cargo and crew, allowing NASA to focus on human 
exploration of deep space.

    Today's hearing provides us the opportunity to examine those 
rationales in the context of the cost and risks that NASA and its 
international partners will face in sustaining the ISS for that length 
of time.
    Well, Mr. Chairman, we have a lot to discuss this morning. I want 
to thank our witnesses again for being here and with that I yield back.

    Chairman Babin. Thank you, Ms. Edwards. I now recognize the 
Ranking Member of the Full Committee for a statement, the 
gentlelady from Texas.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
for holding this hearing on the International Space Station. 
This really is an important topic, and I look forward to the 
testimony of our panel of witnesses and I welcome them.
    It is no secret that I have been a long supporter of the 
ISS. It plays a unique role in furthering research, advancing 
human spaceflight, and inspiring our young people. Moreover, in 
addition to being an incredible engineering achievement, it 
provides a very visible demonstration of the benefits that can 
be derived from peaceful international cooperation in space.
    Failures of commercial cargo transportation missions to the 
ISS remind us that spaceflight is not easy. Failures will 
occur, and unfortunately these failures will have impacts on 
the program. We need to better understand those impacts, as 
well as the plans for dealing with them going forward. And we 
need to know whether there are any lessons learned that need to 
be applied to the far more challenging Commercial Crew 
Transportation Program.
    I've said before that the ISS is a perishable commodity. We 
need to be clear on what NASA needs to accomplish with this 
unique laboratory while it is still operational. While the 
Administration has proposed to extend ISS operations until 
2024, maintaining the ISS involves risk and a significant 
opportunity cost. We need to ensure that the ISS is being used 
in a way that maximizes its productivity and value to the 
nation.
    In addition, if we are to ensure that the needed ISS 
research and technology activities are carried out, it is clear 
that we are going to need to make the necessary investments. 
Stagnant ISS research budgets do not communicate the message 
that we are serious about supporting the important research and 
technology efforts that can only be accomplished on the ISS. 
That is a problem that Congress could and should fix.
    Well, Mr. Chairman, we have a lot of issues to discuss 
today. I welcome our witnesses and look forward to a productive 
hearing. I thank you, and I yield back.
    [The prepared statement of Ms. Johnson of Texas follows:]

                  Prepared Statement of Full Committee
                  Ranking Member Eddie Bernice Johnson

    Thank you, Mr. Chairman, for holding this hearing on the 
International Space Station. This is an important topic, and I look 
forward to the testimony of our panel of witnesses.
    It is no secret that I have long been a supporter of the ISS. It 
plays a unique role in furthering research, advancing human 
spaceflight, and inspiring our young people. Moreover, in addition to 
being an incredible engineering achievement, it provides a very visible 
demonstration of the benefits that can be derived from peaceful 
international cooperation in space.
    Failures of commercial cargo transportation missions to the ISS 
remind us that spaceflight is not easy. Failures will occur, and 
unfortunately those failures will have impacts on the ISS program. We 
need to better understand those impacts, as well as the plans for 
dealing with them going forward. And we need to know whether there are 
any ``lessons learned'' that need to be applied to the far more 
challenging commercial crew transportation program.
    I have said before that the ISS is a perishable commodity. We need 
to be clear on what NASA needs to accomplish with this unique 
laboratory while it is still operational. While the Administration has 
proposed to extend ISS operations until 2024, maintaining the ISS 
involves risks and a significant opportunity cost. We need to ensure 
that the ISS is being used in a way that maximizes its productivity and 
value to the nation.
    In addition, if we are to ensure that the needed ISS research and 
technology activities are carried out, it is clear that we are going to 
need to make the necessary investments.
    Stagnant ISS research budgets do not communicate the message that 
we are serious about supporting the important research and technology 
efforts that can only be accomplished on the ISS. That is a problem 
that Congress can and should fix.
    Well, Mr. Chairman, we have a lot of issues to discuss today. I 
welcome our witnesses and look forward to a productive hearing.
    Thank you, and I yield back.

    Chairman Babin. Thank you, Ms. Johnson. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    At this time I would like to introduce our witnesses. Bill 
Gerstenmaier is the Associate Administrator of the Human 
Exploration and Operations Mission Directorate at NASA. Our 
second witness today is John Elbon, Vice President and General 
Manager of Space Exploration for The Boeing Company. Testifying 
third is the Honorable Paul Martin who has served as NASA's 
Inspector General since 2009. Our third witness is Shelby 
Oakley, Acting Director of Acquisition and Sourcing Management 
for Government Accountability Office, GAO. Today's final 
witness is Dr. James Pawelczyk, an Associate Professor of 
Physiology and Kinesiology at the Pennsylvania State University 
and a retired astronaut.
    In order to allow time for discussion, please limit your 
testimony to five minutes. Your entire written statement will 
be made part of the record.
    I now recognize Mr. Gerstenmaier for five minutes to 
present his testimony.

              TESTIMONY OF MR. BILL GERSTENMAIER,

                    ASSOCIATE ADMINISTRATOR,

                HUMAN EXPLORATION AND OPERATIONS

                   MISSION DIRECTORATE, NASA

    Mr. Gerstenmaier. Thank you, Mr. Chairman, and thank you 
for the opportunity to testify on behalf of myself and the men 
and women that work on the International Space Station. This is 
one of the most talented and dedicated international teams in 
the world. The ISS is an amazing research facility. Today on 
the ISS during this expedition, there are 329 research 
investigations in progress. These span topics from human 
research into how the human body performs in microgravity, 
basic biology, and biotechnology, physical science, Earth and 
space science, technology development, and education. There's 
never been this scope of research performed on a continuous 
basis in space.
    We are also in the midst of a one-year crew expedition. 
This mission will give us detailed information into the human 
adaptation to the space environment with mission durations 
approximately equal to the Mars transit time. We will also get 
a unique chance through the twins study to see how the human 
genome changes when exposed to microgravity. We have kept a 
continual crew presence on the ISS for almost 15 years. Eighty-
three countries from around the world have used the ISS for 
research. Further, private companies through the National 
Laboratory and the Center for the Advancement of Science and 
Space have used the ISS.
    This week in Boston there was an ISS users conference. This 
is an exciting time as many new researchers are beginning to 
see the advantages of space-based research to augment their 
terrestrial investigations. The growth of non-NASA research is 
exciting and shows that there's a generic interest in using the 
unique properties of space to investigate basic research 
opportunities typically only done on the Earth.
    Space provides a unique window into any physical process 
that is affected by gravity. Further, the human body reacts in 
space with many conditions that mimic conditions facing the 
elderly: bone loss, muscle wasting, immune system degradation, 
and balance problems. Using animal models, unique insight, and 
potential new treatments for the elderly can be developed based 
on Space Station research.
    As the Chairman stated earlier, operating under frontier of 
space is not easy. In the past nine months, three independent 
cargo vehicles were lost on the way to the ISS. This 
graphically shows the difficulty of living and operating in 
space. The lost vehicles have different designs, different 
heritages, different manufacturing, different build processes, 
and utilize different ascent trajectories. The failure of these 
three systems shows the difficulty of launching and operating 
in space.
    We often think that ISS is only 250 miles away and that the 
journey is easy. This is not true. We are essentially operating 
these systems at the edge of our engineering capability. We 
also often think that if only we provide more insight and 
oversight, we can lower the risk of cargo delivery. 
Unfortunately, the demands required to escape Earth's gravity 
expose us to the same level of risk no matter how much insight 
we add. But the insight can give us insight and help us 
understand the designs to make sure that we can end up with 
better designs.
    The right level of insight can reduce and find design 
errors. However, too much insight can distract the teams from 
working on and improving design. It's amazing that even after 
these three failures, the basic ISS operations were not 
impacted. This is attributed to the teams that manage and 
operate the ISS. They learned and are implementing the hard 
lessons from the Columbia tragedy where the ISS had to operate 
without the shuttle for several years. The consumables 
management processes and logistics resupply techniques learned 
are proving their worth. However, these failures are not 
without consequences. Several of the agency performance goals 
associated with research and cargo flights will not be met. The 
ISS program is reducing consumables margins on ISS to favor 
research. This will not be enough to recover the research 
impacts. The delay in the Soyuz crew flight, which was required 
to allow the teams to understand the Progress failure, required 
the ISS to operate with three crew for approximately three 
weeks longer than planned and will impact research crew hours. 
The impact of the loss also had real implications to students 
and researchers who lost cargo on the Orbital ATK-Cygnus flight 
only to lose the replacement and return-to-flight hardware 
again on the SpaceX flight. They suffered a double loss. The 
loss of the international docking adapter can be accommodated 
schedule-wise without impacting the crew program but will 
result in a dollar loss to ISS.
    ISS is a phenomenal resource for the nation. The research 
being done on ISS can be done no place else. ISS can serve as 
an innovation accelerator for private entrepreneurs, help NASA 
prepare for journeys beyond low-Earth orbit, and benefits 
directly people on the Earth. Congressional support for ISS 
operations through at least 2024 would be a positive sign to 
the international partners and future users of ISS. Operating 
on the frontier is not easy, and we need to not get complacent 
and think ISS operations are routine or easy. They are not. The 
ISS team has done a great job of managing in a technically 
demanding environment. The ISS team will continue to look for 
ways to improve. The ISS teams need to be given flexibility to 
manage, and others need to understand the benefits of 
dissimilar redundancy and how it can be used to provide 
robustness. The benefits of ISS will take longer to be realized 
than most can envision, but the benefits of ISS will exceed the 
expectations of all involved.
    I would also like to thank the Committee for their support 
to human spaceflight, especially the authorization activity 
associated with Commercial Crew, SLS, Orion, and ISS. I look 
forward to your questions. Thank you.
    [The prepared statement of Mr. Gerstenmaier follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
      
    Chairman Babin. Yes, sir. Thank you, Mr. Gerstenmaier. I'll 
now recognize Mr. Elbon for five minutes to present his 
testimony.

                  TESTIMONY OF MR. JOHN ELBON,

              VICE PRESIDENT AND GENERAL MANAGER,

                       SPACE EXPLORATION,

                       THE BOEING COMPANY

    Mr. Elbon. Chairman Babin, Ranking Member Edwards, and 
Members of the Subcommittee, on behalf of The Boeing Company, 
thank you for the opportunity to testify today to provide an 
update on Boeing's role in the International Space Station. And 
Mr. Chairman, as one of your constituents, congratulations on 
your selection to lead this important Committee.
    Boeing is extremely proud to have supported NASA in the 
design, integration and assembly of the ISS. As NASA's prime 
contractor, Boeing delivered the U.S. elements of the ISS and 
provided system integration for the stage-by-stage assembly on 
orbit of all U.S. and international elements. We continue in 
the ISS sustainment role today.
    On November 2, the world will celebrate 15 years of 
continuous presence in space, human presence in space, with 
international crews living and working aboard the ISS. At a 
time when many decry a gap in America's space program as we 
transition from the Space Shuttle to commercial transportation, 
we who know ISS know that America and our partner nations are 
making advances in space every day.
    The International Space Station has been recognized as the 
largest, most complex international scientific and engineering 
project in history and the world's largest endeavor in space to 
date. Ongoing improvements are making ISS even better.
    The Station brought together hardware and software from 16 
countries around the globe and 37 states and more than 10,000 
suppliers in our country. About the size of an American 
football field, the ISS is larger than a six bedroom house and 
has the internal pressurized volume of a 747.
    ISS is an engineering marvel, a beacon for international 
cooperation, and a shining example of what can be achieved 
through strong leadership and unity of purpose on behalf of 
humankind.
    As NASA's contractor for sustaining engineering of the ISS, 
Boeing is responsible for maintaining the Station and ensuring 
the full availability of the unique research laboratory for 
NASA, international partners, other U.S. Government agencies 
and private companies. In performing this role, we continue to 
work with NASA to reduce the costs of sustaining the 
International Space Station.
    Over the past ten years, we have reduced the cost of our 
sustainment role by more than 30 percent. These savings has 
enabled NASA to fund ISS improvements such as the NASA Docking 
System, the critical component supporting the increase in the 
number of commercial vehicles visiting the Station. These 
improvements help to keep ISS at peak efficiency today and 
provide a basis for continuing strong performance well into the 
future. With NASA, we recently completed a technical assessment 
of the useable life of major ISS hardware components. Our study 
indicates that the Station will be operable at least through 
2028. Long-term viability of the Station is an important factor 
in continuing to attract researchers, who invest considerable 
time in preparing their experiments for operation in space.
    The continuing on-orbit reliability of ISS and the 
improvements made to further enhance research capabilities are 
a boon to maximizing facility utilization. Our work on ISS 
enables many benefits and improvements both to enable 
continuing human space exploration and to improve the quality 
of life here on Earth.
    ISS continues to be used for developing multiple 
technologies to support deep space exploration. NASA is 
developing highly reliable life support systems to address 
needs for future exploration habitation systems. The ISS is a 
test bed for learning how the body reacts to prolonged 
weightlessness and allows us to develop countermeasures now.
    And we are learning self-sustainment skills, such as 
growing food in space and recycling water. All of these things 
are important to learn and understand before we explore farther 
into our solar system.
    Research on ISS has led to numerous improvements on Earth, 
from the medical field, to Earth observations, to providing 
clean water in underdeveloped countries, to how we diagnose and 
treat patients in remote areas.
    Over the past several years, I've had opportunity to 
interact with leaders in countries that are not engaged in the 
ISS or do not have a space program. Without exception, in every 
one of these conversations about space exploration, these 
leaders express a strong desire to be involved in space, and 
more specifically, the International Space Station. They see 
the value of ISS: to inspire their youth to pursue STEM 
education, to create economy-expanding high technology 
industries, and to provide a significant source of national 
pride. This fresh perspective from leaders outside Station 
international partnership recognizing the tremendous value of 
ISS serves as a strong reminder to U.S. leaders and to all who 
are charged with the care of this national asset and global 
resource. We must never take what we have in ISS for granted. 
We must ensure that the International Space Station is well-
funded, meticulously maintained and operated, and fully 
utilized for meaningful, high-value research.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Elbon follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Chairman Babin. Thank you, Mr. Elbon. I now recognize Mr. 
Martin for five minutes to present his testimony.

           TESTIMONY OF THE HONORABLE PAUL K. MARTIN,

                    INSPECTOR GENERAL, NASA

    Mr. Martin. Thank you for inviting us to be part of the 
discussion about NASA's challenges in operating and maximizing 
research on the International Space Station, a very timely 
topic in light of the loss of three cargo supply flights over 
the past eight months.
    The Office of Inspector General has issued four reports 
related to the topic of today's hearing during the past two 
years, including reviews that examine NASA's plans to extend 
Station operations until 2024 and its contracts with private 
companies to fly cargo and eventually crew to Station. We have 
five more reviews related to this topic under way, including an 
examination of October's cargo resupply failure, NASA's efforts 
to manage health and behavioral risk for extended space 
exploration, and challenges to international cooperation in 
space.
    Our audit from last September of NASA's plans to extend the 
ISS reported that the agency had identified no major obstacles 
to continued operations through 2024. However, we found NASA 
must address a series of technical challenges, including 
ensuring adequate power generation in light of degradation of 
the Station's solar arrays as well as a limited ability to 
transport large replacement parts to Station.
    While NASA officials estimate an annual ISS budget of 
between $3 and $4 billion through 2024, we anticipate the cost 
may be higher. First, much of the projected increase is 
attributable to higher transportation costs, and we found 
NASA's estimates for cargo and crew transportation optimistic.
    Second, most of the agency's international partners have 
yet to commit to Station operations beyond 2020, and a decision 
by one or more not to participate could drive up costs for 
NASA. As noted in our report, the number one operational risk 
for the ISS program is ensuring the ability to deliver supplies 
and astronauts to Station. While NASA is working with two 
commercial cargo providers for redundancy, flights by Orbital 
and SpaceX are now on hold pending the outcome of accident 
investigations and approvals from the FAA and NASA.
    In addition to the loss of important supplies, the failed 
cargo flights have affected NASA research aboard Station in at 
least three ways: number one, by reducing available crew time 
due to a temporary delay in returning the Station's crew 
complement to six astronauts; number two, by increasing cost to 
replace the lost research; and number three, by delaying return 
of experiments due to the suspension of flights by SpaceX, the 
only company capable of bringing cargo back to Earth.
    Because NASA uses the ISS as a research platform to study a 
variety of risks associated with human travel and long-term 
habitation in space, it is an important part of its plans to 
send humans beyond low-Earth orbit. As we have reported in the 
past, utilization of the ISS for research has increased over 
the years, but several factors continue to limit its full 
potential. For example, until a seventh astronaut is brought 
aboard the Station, NASA will not be in a position to maximize 
crew time devoted to research. In addition, on-board crew will 
soon devote substantial time to reconfiguring the ISS to 
accommodate the commercial vehicles NASA hopes will transport 
astronauts beginning in 2017. To that point, late last year, 
NASA awarded $6.8 billion in contracts to Boeing and SpaceX to 
complete development of their spaceflight systems for crew. But 
NASA's Commercial Crew Program faces several significant 
hurdles, including unstable funding, the need to provide timely 
requirements and certification guidance to contractors, and 
coordination issues with other federal agencies. Given its 
importance, the OIG recently initiated a follow-up audit to 
review the status of NASA's Commercial Crew Program.
    And that concludes my prepared remarks. Thank you, sir.
    [The prepared statement of Mr. Martin follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
    Chairman Babin. Thank you, Mr. Martin. And I now recognize 
Ms. Oakley for five minutes to present her testimony.

        TESTIMONY OF MS. SHELBY OAKLEY, ACTING DIRECTOR,

              ACQUISITION AND SOURCING MANAGEMENT,

                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Oakley. Good morning, Chairman Babin, Ranking Member 
Edwards, and Ranking Member Johnson and Members of the 
Subcommittee. Thank you for inviting me here today to discuss 
GAO's work on NASA's management of the International Space 
Station.
    As you know, the United States has spent tens of billions 
of dollars to develop, assemble, and operate the Space Station 
over the last two decades. The United States could spend 
billions more in coming years to further capitalize on the 
investment, given the potential extension of operations to 
2024. Today I will discuss three areas: First, NASA's budget 
for ISS; second, some challenges that could affect increased 
use of ISS; and finally, steps that NASA and CASIS could take 
to better document and assess progress in this regard.
    NASA continues to make a significant investment in ISS each 
year. This investment is projected to increase over the next 
five years mainly because the ISS program will begin to fund 
commercial crew flights. In 2020, transportation costs will be 
over 55 percent of the projected $4 billion ISS budget. Unlike 
transportation costs, costs to operate and conduct research on 
ISS are projected to remain relatively stable through 2020. 
NASA officials have indicated that the funding priorities for 
ISS are crew safety and transportation, maintaining the 
facility, and finally research. As a result, any increases to 
transportation costs or operations costs could diminish 
available funding for research. Furthermore, the potential 
increases to the ISS budget as a result of the planned 
extension to 2024 are currently unknown.
    Second, NASA and CASIS face several challenges that could 
negatively affect their efforts to increase use of ISS for 
science including cargo transportation failures and delays, 
limited progress in raising additional funding for research, 
and increased demand for crew time and facilities.
    Recent mishaps of the commercial cargo vehicles have had a 
direct impact on both CASIS and NASA efforts to increase 
research on ISS. For example, launch failures and delays have 
already resulted in the loss of CASIS-sponsored research and 
increased costs by almost $500,000, and let's not forget your 
crab cakes, Ms. Edwards. Furthermore, additional increases are 
likely as a result of the most recent failure.
    For CASIS, absorbing these increases has and could continue 
to be challenging because it has thus far made limited progress 
raising additional funds for science from external sources. For 
example, in 2014, CASIS had only received a little over $9,000 
in contributions. However, CASIS has seen an increase in 
commitments from external donors. Specifically, in 2014, it 
received commitments of over $12 million.
    CASIS also faces challenges with competition for available 
crew time and a heavy demand for key facilities which limits 
the amount and types of experiments that CASIS can bring to 
ISS. Crew time is already allocated at or over 100 percent. To 
address this challenge, NASA and CASIS are dependent on 
commercial crew providers delivering promised capabilities as 
planned in 2017. With these capabilities, NASA will be able to 
add a crew member to ISS who will devote most of his or her 
time to research, effectively doubling research time.
    However, many technical challenges and NASA's ability to 
fund the Commercial Crew Program could delay these efforts. 
Finally, even if NASA and CASIS can effectively navigate these 
challenges, demonstrating a return on investment is very 
difficult in scientific research and can oftentimes take many 
years.
    In the short term, it is essential that CASIS continues to 
make progress promoting research and achieving its goal of 
increased use of ISS.
    We reported in April that NASA and CASIS could do more to 
objectively define, assess, and report on such progress, for 
example, by assigning measurable targets or goals to its annual 
performance metrics. NASA and CASIS concurred and agreed to 
take action in response.
    In conclusion, potential extension of ISS to 2024 will 
likely require significant continued investments. As a result, 
ensuring that ISS capabilities are being used to support 
significant scientific gains is critical. Furthermore, 
demonstrating and communicating the return on investment could 
help support NASA and CASIS in achieving their shared goal of 
developing sustained commercial markets in low-Earth orbit.
    Chairman Babin, Ranking Member Edwards, and Members of the 
Subcommittee, this concludes my prepared remarks. I'm happy to 
take any questions that you have.
    [The prepared statement of Ms. Oakley follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Babin. Thank you, Ms. Oakley. Now I'd like to 
recognize Dr. Pawelczyk for five minutes to present his 
testimony.

              TESTIMONY OF DR. JAMES A. PAWELCZYK,

                     ASSOCIATE PROFESSOR OF

                  PHYSIOLOGY AND KINESIOLOGY,

               THE PENNSYLVANIA STATE UNIVERSITY

    Dr. Pawelczyk. Thank you, Mr. Chairman, Members of the 
Subcommittee, good morning to you. I thank you for the 
opportunity to discuss the status of research using the 
International Space Station. It's the only platform of its 
kind, and it is absolutely essential to NASA's exploration 
goals.
    To prepare for this hearing, you asked four specific 
questions, and I would like to briefly address each in the time 
allotted. You asked about opportunities and challenges. Well, 
the Augustine Commission emphasized three unique stressors that 
future astronauts will face: prolonged exposure to solar and 
galactic radiation; prolonged periods of exposure to 
microgravity; and confinement in close, relatively austere 
quarters. All of these stressors are present in the ISS 
environment. Martian operations add more stressors: a dusty, 
dim, environment and a gravitational field that is a little 
more than a third of our own. Unless we improve our centrifuge 
capabilities on the ISS--they are limited at the moment--we 
risk sending humans to Mars with little or no knowledge of how 
mammalian biology responds over years in a gravitational field 
less than Earth's.
    Two challenges dominate the landscape, limited crew time 
and limited access to the ISS. We can reasonably anticipate 
that competition for time will become worse as the facility 
ages and demands to perform necessary maintenance become more 
acute.
    Access is really a matter of competing programs. CASIS-
sponsored research and peer-reviewed NASA-sponsored research 
vie for scarce resources. Better coordination between the two 
entities is needed.
    You asked about critical areas of research. The National 
Research Council's Life and Physical Sciences Decadal Survey, 
which was completed in 2011 at Congress' request, summarized 
and sequenced 65 high-priority research tasks. Furthermore, the 
decadal study created two notional research plans, one with a 
goal of rebuilding a research enterprise and the other with a 
goal of a human mission to Mars. More about those goals in just 
a moment.
    You asked about priorities. Well, prioritizing ISS research 
isn't a new concept. In fact, we've been working on that 
problem for close to 15 years. But the key question for 
prioritization isn't scientific, it's programmatic and it's 
something like this: Shall discovery research or fundamental 
research or translational research take precedence in the 
mature years of the ISS research program? The answer to that 
question has to be provided by government. Once those 
programmatic priorities are sequenced, can we prioritize the 
research? Absolutely. The LPS Decadal Survey provided a very 
detailed scheme and used eight unique criteria to do so.
    The process for operations, you were curious about that, is 
well understood. CASIS receives its 50-percent allocation 
followed by human research, then technology demonstrations, and 
what resources remain are devoted to biology, physical 
sciences, and the Science Mission Directorate.
    You asked about implications for extension and criteria 
that Congress should consider. I think one of the first tests 
that Congress should apply can be answered with a simple yes or 
no question. Is NASA prepared to operate a robust research 
program through 2024? And in my opinion, the answer is an 
unqualified yes, exclamation point. Absolutely. The 
transformation of this organization in the past five years has 
been nothing short of remarkable in the life and physical 
sciences. I've provided seven examples of that in my written 
testimony. But there are large knowledge gaps for Mars missions 
that will be one year or longer. The IG recently reported on 
this topic, and there are four areas where I'd like to see the 
report go a little bit further. First, the IG found that 
extension to 2024 wouldn't provide enough time to mitigate 13 
human health risks for a Mars mission. I'm not quite prepared 
to accept that conclusion. There's simply too many degrees of 
freedom to establish useful risk criteria at this point in 
time. These risks need the context provided by a thorough task 
analysis of future Martian operations.
    Second, the report didn't address powered down mass to any 
great extent, and we may need powered sample return for 
additional research tasks.
    Third, the IG emphasized average crew time as a metric to 
quantify research utility. It's a good metric, but I'm not sure 
it goes far enough. I think we need to work on the concept of 
efficiency and evaluate and improve the efficiency of the 
research time we have.
    And finally, the IG noted that research time is constrained 
with a six-person crew. We need that seventh member.
    So my top recommendations are the following: Prioritize the 
programmatic goals, review the essential resources for extended 
mammalian research, including that seventh crew member, a 
scientist astronaut whose nominal responsibility is research, 
and finally to extend biological experiments to cover a 
substantial portion of mammalian life cycle and incorporate 
Martian gravity equivalents wherever possible. Given those 
sufficient resources, I am very optimistic that NASA can 
deliver another decade of rigorous translational research.
    I sincerely thank you for your support of the program and 
the opportunity to appear.
    [The prepared statement of Dr. Pawelczyk follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Babin. Thank you, Dr. Pawelczyk. I thank the 
witnesses, all the witnesses, for your testimony. Members are 
reminded that committee rules limit questioning to five 
minutes. The Chair now recognizes himself for five minutes.
    This question will be for Mr. Gerstenmaier and Mr. Elbon. 
The SpaceX mission had a new commercial crew docking mechanism, 
water filtration device, and a new spacesuit on board. Can you 
explain the impact of the loss of these items on the ISS and 
Commercial Crew Programs? And how do you plan to mitigate these 
impacts? Mr. Gerstenmaier?
    Mr. Gerstenmaier. Okay. We'll start with the international 
docking adaptor that's scheduled for Commercial Crew. It was 
lost. We wanted to have two units on orbit before we began 
commercial crew flights. We'll still be able to, I believe 
we'll be able to, support that schedule. We'll take the parts 
from a third unit that was being assembled as a spare or a 
backup and work with the contract to go ahead and extend that 
and get that delivered on time.
    The next docking adaptor is scheduled to go in the next 
several months, and we'll figure out the right cargo flight to 
take it up. And one docking adaptor will be sufficient to 
support the Commercial Crew Program. So I think we can 
accommodate that. The biggest impact to us is the cost 
associated with now having to manufacture a third unit from the 
spare parts that remain.
    On the multi-filtration beds, we think before the Japanese 
transfer vehicle flies in August, we should be able to get a 
new transfer bed manufactured again through the outstanding 
work of the Boeing Corporation to help us expedite that work, 
and we've got plans in place to do that.
    We've been trending down on the toxic organic compounds on 
board Space Station, so we're still in a stable configuration 
with the beds we have on orbit. We'll continue to monitor that 
carefully. But we should be okay from that standpoint.
    The loss of the spacesuit, we will probably now reconfigure 
one of the spacesuits we had planned on returning on Space 
Station. We'll do more repairs on it on orbit, and we'll have 
that space suit available to go do EVAs. And again, we've also 
put a contract change in place to work with the Orbital 
Sciences Corporation to look at carrying spacesuits in the 
future for us.
    So I think we've mitigated all three of the concerns that 
you have. The impacts will be not significant, and we can 
accommodate them but there are impacts with each one of them.
    Chairman Babin. Thank you. Mr. Elbon?
    Mr. Elbon. I'll just add to what Mr. Gerstenmaier said. The 
most significant involvement from Boeing's perspective is with 
the docking adapter. The second unit is in Florida and will be 
ready to fly when we resume flying. And the third unit, the 
parts are available at our suppliers and in Houston and we're 
under way putting the plan together to assemble that third unit 
to replace the one that was lost.
    As Mr. Gerstenmaier mentioned, we're working very closely 
with NASA to understand the water filtration issue and to get 
those components ready to launch on the next resupply vehicles 
that go up. So I agree that we're in good shape to support the 
crew on orbit.
    Chairman Babin. Okay. Thank you. Next question. NASA's 
Aerospace, and this will be for Mr. Gerstenmaier, NASA's 
Aerospace Safety Advisory Panel has recommended that as NASA 
assesses ISS life extension, it should also review the 
objectives for continued ISS use and clearly articulate them to 
ensure that the costs and safety risks are balanced. Given that 
human spaceflight is inherently risky, that risk always needs 
to be weighed against the value to be gained by the endeavor.
    What are NASA's objectives for extending ISS operations 
through 2024?
    Mr. Gerstenmaier. Again, on the human research front, 
there's many medical investigations we're looking at that were 
described by other panel members about the radiation 
environment, the microgravity environment, and we need to 
understand those and have those risks mitigated and understood 
before we're ready to commit to longer endeavors in space. And 
those are all in plans and are in place. We have detailed 
investigations and the current one-year expedition on board the 
Space Station is addressing many of those issues and concerns, 
and that's moving forward.
    Chairman Babin. Okay. Thank you. And then finally, for Mr. 
Martin, what insight does NASA have into the mishap, 
investigations being performed by Orbital ATK and SpaceX? 
Looking back at the Apollo 1 accident, the Challenger accident, 
and the Columbia accident, do you believe that the 
investigations have benefitted from an independent review 
separate from the contractors or the program?
    Mr. Martin. Thank you, Mr. Chairman. My understanding is 
the FAA granted licenses to the private contractors, both 
SpaceX and Orbital ATK, and under the contract, they are 
leading the accident investigations. I believe with the Orbital 
mishap that NASA has a separate review ongoing to try to get to 
the root cause there. But there is not the same kind of 
independent accident investigation board if it were a NASA-
owned failure. And I think we're currently conducting a review 
that's going to look at some of the concerns we have about the 
independence of a contractor-led accident investigation board. 
But again, pursuant to the contract and the license for the 
FAA, that's the way it's intended to be.
    Chairman Babin. Okay. Thank you. And that completes my 
questions. I now recognize the Ranking Member, Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to the 
witnesses again. Mr. Martin's report of September 2014 found 
that NASA's estimate for the ISS budget $3 to $4 billion per 
year through 2024 is overly optimistic. That was reiterated 
obviously in your testimony. And so I'm just really curious 
from Mr. Gerstenmaier, if you could talk to us about the basis 
of your estimates for projected crew and cargo transportation 
costs to support ISS. And I would note in that for example, 
there have been three cargo mishaps in the last eight months. 
Was that factored into your projections for costs? Because it 
would seem that that alone would then begin to shoot costs up 
if those kinds of accidents, which one could expect might 
happen, over the course of operations over another--to 2024. So 
it would be helpful to know what your basis for those estimated 
costs are and respond to the challenges that Mr. Martin has 
laid out in his September 2014 report.
    Mr. Gerstenmaier. We've been looking and working very 
aggressively to look at cost management and cost control. We've 
consolidated some contracts into a smaller number of contracts. 
We also are using competition to attempt to drive down the 
cost. We're in the process--right now we're in a blackout 
period of where we're going through a cargo resupply services 
number two contract award. We've got extremely good competition 
from that activity, and we believe competition will help us 
control and hold those costs down.
    So I think we're actively working. We're aware of those 
cost issues and the challenges in front of us. The teams have 
objective acquisition strategies. We have effective 
consolidation plans, and we're removing costs from the program 
as we can. And we believe we can hold those costs down, and we 
can provide some objective evidence of what we've done and seen 
in past contracts versus future contract entities.
    Ms. Edwards. And Mr. Martin, I've heard from Mr. 
Gerstenmaier, but since your 2014 report, would it still be 
your assessment that NASA's projections are overly optimistic? 
And in your analysis, would you factor in three, you know, 
mishaps, failures, in a year in terms of looking at the costs?
    Mr. Martin. Yes. I'm not exactly sure whether they factored 
how many accidents in. But I do think that their cost 
projections are overly optimistic and continue to be. Over the 
life of the program, the ISS has shown eight percent increase 
annually in costs over the life of the program. In fact, from 
2011 to 2013, there was a 26 percent cost increase for the ISS. 
So moving forward, as we go out, as NASA considers extending 
the life of the Station to 2024, it's projected that in 2024, 
59 percent of Station expenses will be for crew and cargo 
transportation. That's a big piece of the pie.
    Ms. Edwards. Just curious for all of the panelists, if you 
look at NASA's rationale for extending to 2024, they include 
research and technology discoveries that benefit society, 
enabling human exploration to Mars, establishing crew and cargo 
to low-Earth orbit, and sustained commercial use of space.
    Just curious as to whether any of you believe what NASA's 
top priority should be. I mean, that's a big list in itself, 
and it's kind of hard to figure out what should be first versus 
fourth. Dr. Pawelczyk?
    Dr. Pawelczyk. Thank you very much for that question. And 
it's a great one, and I think it's an extremely important one 
for this Subcommittee to take on.
    So the three biggies as you mention them really are this 
idea of discovery science. What are the big science questions 
that we want to have answered? We may not recognize the utility 
of those for a period of years. A piece of research equipment 
that we flew on my mission in 1998 was largely used in last 
year's Nobel Prize-winning awards. So that's 16 years to 
recognize some return on that investment, but it's a very 
important return nonetheless.
    There's also translation, this idea of what do we need to 
do in order to go further. And of course, you mentioned the 
commercialization aspects. We have contended in the scientific 
community for many years that it is not our job to sequence 
those priorities. It is the job of government. It is the job of 
either the executive branch or the legislative branch, and I'll 
leave it up to you to sort out which is which. But I believe 
you've been pretty clear at this point. When I look at the 
authorization language for this year, you've said Mars is very 
important, but it's not an either/or. It's an and. NASA will 
also maintain a fundamental research program.
    So I think you've already told us that Mars is the answer. 
And when you look at the research that remains to be done, the 
risks that sit in the red, most of them, and about half of 
them, are associated with the extended duration on Mars, so a 
notional mission of approximately three years duration.
    I don't know of another research platform that is going to 
provide us extended research capability to answer those three-
year questions. The ISS is our choice for that, and I think 
that's how it should be used.
    Ms. Edwards. Thank you. Thank you, Mr. Chairman.
    Chairman Babin. Thank you. And now I'd like to recognize 
Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Chairman Babin. Five minutes.
    Mr. Brooks. Yes, sir. Mr. Gerstenmaier, in light of the 
recent launch failures, is NASA reassessing their insight and 
oversight approach for the development, production, and 
operations of commercially provided vehicles that service the 
International Space Station?
    Mr. Gerstenmaier. As part of the accident investigation 
with the SpaceX event that occurred, part of our Commercial 
Crew Program representatives are part of that activity with 
SpaceX. So they are actively involved in analyzing and 
understanding what occurred on the cargo vehicle with an eye 
towards any design changes, any process changes, any hardware 
changes that need to be made in the crew program. So we're 
actively involved in transitioning that information from this 
failure directly into the crew program.
    Mr. Brooks. Thank you, and I appreciate that response, an 
effort on behalf of NASA. In my experience, NASA has a 
tremendous amount of insight and expertise, and I would 
encourage NASA to show the leadership that you indicate they 
are showing and the management skill that you indicate that 
they are doing to assist with Commercial Crew so that they can 
be more successful than they have been most recently.
    This question is with respect to Mr. Elbon and Mr. 
Gerstenmaier. The loss of the SpaceX vehicle two weeks ago has 
been described as a big loss. Part of that loss was a 
replacement spacesuit for the International Space Station. What 
are the implications to the International Space Station program 
for the loss of this suit?
    Mr. Gerstenmaier. As I described earlier, we'll probably 
take one of the suits that are on orbit and then refurbish it 
on orbit instead of returning it to the ground, and then we 
will develop a capability to transport suits that areon all of 
our cargo vehicles so that we can bring other suits up to Space 
Station as needed to support the EVA activity.
    Mr. Brooks. Mr. Elbon, do you have anything to add?
    Mr. Elbon. The space suits themselves are not part of our 
sustaining contract, so I'm not in the middle of working that. 
We do however help NASA with all the analysis necessary to 
figure out which activities need to be done on EVA so that we 
can make sure that Space Station can continue to operate with 
the capabilities that exist there.
    Mr. Brooks. What was the cost of that lost spacesuit?
    Mr. Gerstenmaier. I don't have a specific cost, and I can 
take that for the record. We have 13 spacesuits that's 
available to us. They're from the Shuttle Program, and this was 
one of those suits. We will not replace that suit. It will just 
continue to be lost, and it will not be replaced. We have 
sufficient suits remaining in our inventory to continue to 
operate safely through the 2024 and beyond timeframe.
    Mr. Brooks. Well, the items that NASA's had on these most 
recent launches, who is it that is absorbing the cost of those 
lost items that were being transported to the International 
Space Station? Is that the commercial crew provider or is that 
NASA?
    Mr. Gerstenmaier. For the NASA items, the losses are borne 
by NASA, and we estimate the NASA cargo loss roughly at about 
$110 million or so on the SpaceX flight. The researchers, 
they're responsible for their hardware. They bear the loss from 
the research hardware that was lost, and that's how that splits 
out.
    Mr. Brooks. Is there going to be any future effort by NASA 
inasmuch as we're hiring private contractors to require those 
private contractors to reimburse NASA for equipment and 
materials lost because the private contractors were 
unsuccessful in launching their vehicles?
    Mr. Gerstenmaier. Our contracts today have a final 
milestone payment associated with successful delivery of cargo 
on orbit. Obviously, they will not receive payment for the 
accomplishment of that milestone, and we're investigating the 
advantages and disadvantages of having essentially insurance 
provided for these other capabilities, or to provide for lost 
cargo in the future. We haven't made a decision yet on whether 
that is cost-effective for us or not, but we're taking a look 
at that to see if it's effective to have insurance or it's 
better that we just essentially indemnify and the users bear 
the risk of the loss.
    Mr. Brooks. The monies that will be withheld as payment to 
the private entity spacecraft providers, is that enough to 
offset the losses that NASA has incurred?
    Mr. Gerstenmaier. It offsets a portion but not the entire 
amount.
    Mr. Brooks. So American taxpayers can rest assured then 
that at least we'll have some recoupment of the losses that 
American taxpayers have suffered as a consequence of the 
private sector providers' failure to provide the represented 
craft?
    Mr. Gerstenmaier. Yes.
    Mr. Brooks. That's all, Mr. Chairman. I yield the remainder 
of my time.
    Chairman Babin. Yes, sir. Thank you. And I now recognize 
the Ranking Member from Texas, Ms. Johnson. Is she here?
    Voice. She left.
    Chairman Babin. Oh, okay.
    Voice. It's Mr. Bera.
    Chairman Babin. Mr. Bera from California. I'm sorry.
    Mr. Bera. Thank you, Mr. Chairman, and I thank the Ranking 
Member for this hearing. As a child growing up in Southern 
California in the aerospace industry in the '60s and early 
'70s, it was remarkable what we could accomplish as Americans 
when we dreamt big. And when we think about the International 
Space Station, it really, truly is an engineering marvel, 
something that over time has, as the witnesses have noted, 15 
years of uninterrupted humans living in space. Remarkable.
    When we think about this and when we think about where we 
want to go, we have to continue to think big as a nation. We 
have to not be afraid of thinking and addressing the issues, 
particularly as we dream about human space travel to Mars. We 
don't know how we're going to get there, but that should not 
daunt us and that should not stop us, and that should not stop 
us from making the investments that allow us to continue to 
incrementally dream big.
    Again, that is what we've done throughout our existence as 
human beings. We've not been afraid to explore. We've not been 
afraid to ask those questions, and certainly this body has a 
responsibility to continue to push for the next generation of 
discovery.
    That said, we increasingly move to this coordinated role 
between what the public invests in partnership with 
commercialization of space. The last few months have been a bit 
concerning. We've been fortunate that the accidents did not 
have human beings on there and only cargo. But as we look at 
this partnership of commercialization and human space travel 
and taking human beings to the Space Station and beyond, it is 
a bit worrisome.
    My question, let me direct it to Mr. Martin. In light of 
these recent accidents and the investigation of these 
accidents, could you elaborate and maybe expand on NASA's role 
in making sure there's a transparent investigation? I mean 
there is some concern if just the commercial entities are 
investigating without NASA's role.
    Mr. Martin. Sure, and I think Bill could go into a lot 
greater detail. Again, under the contracts, since this is a 
commercial spaceflight, the FAA gives the license, and under 
the contract, the contractor leads the accident investigation 
review, unlike a past Challenger accident or something like 
that where NASA itself would convene an independent accident 
investigation board.
    My sense is that NASA is a member, sort of an advisory 
member, of Orbital's, and soon to be SpaceX's, accident review 
boards, but they aren't leading that activity. And perhaps Bill 
could go deeper on that.
    Mr. Bera. That would be great.
    Mr. Gerstenmaier. The NASA team is participating directly 
along with the FAA team and NTSB on the SpaceX accident board. 
They developed a fault tree, just as NASA has done, and the way 
they disposition each fault item is all three entities--NASA, 
FAA, and NTSB--and SpaceX all have to agree that this item is 
closed and not contributing to this accident.
    So it's by consensus. It's the engineering teams 
essentially led by SpaceX but fully represented by the 
government, and the government can say whether we accept or do 
not accept their explanation for what the root cause was. So 
it's a fairly effective way for us to have good insight in. We 
can do our own independent research on the side and contribute 
directly to the conclusions and make sure that we are 
representing the government. So we have the best from the FAA, 
and the best from NASA, participating in those activities along 
with the contractor-led activity.
    Mr. Bera. And do you feel confident that there's that 
transparency in there and that we as a body, Congress, will be 
able to see that transparency and get the full details?
    Mr. Gerstenmaier. So far it's been extremely transparent. 
It was the same with the Orbital investigation. We had that 
same transparency with them, and it's been effective for both 
and we can show direct evidence of where that transparency is 
and how it's being implemented.
    Mr. Bera. Okay. Great. And with that I'll yield back.
    Chairman Babin. Thank you. Now I'd like to recognize the 
gentleman from Florida, Mr. Posey.
    Mr. Posey. I thank you, Mr. Chairman. Mr. Gerstenmaier, we 
know that planning for the ISS began 20 years before it was 
actualized, and now we're less than ten years out from the 
administration's proposed extension to 2024. Does NASA have 
plans for some sort of station in low Earth orbit beyond 2024, 
perhaps some sort of public/private partnerships? Perhaps there 
are current international partners for an ISS replacement? Or 
does NASA intend to leave any LEO station entirely to 
commercial companies?
    Mr. Gerstenmaier. I think at this point we're looking to 
see if we can leave low-Earth orbit to commercial companies. 
What we're doing is we're allowing them to do investigations on 
Station to see if they can get a market return, and it makes 
sense to do that. Then we believe the agency's role is then to 
push further out into space to go into the region around the 
moon we call the proving ground region of space. We will move 
our research and our endeavors into that further region that 
helps the agency get prepared to take bigger missions 
ultimately towards Mars.
    So at this point, we're envisioning the low-Earth orbit to 
essentially be more of a private-sector activity, and we'll use 
the remaining lifetime of Station to let the private sector 
understand the benefits of microgravity research to their 
terrestrial investigations and see if it helps them from a 
fundamental research standpoint.
    Mr. Posey. Now that's great to hear. Our government is 
investing in capitals, Orion, Dragon, CST-100, Cygnus. Most 
capitals are optimized to get crew and cargo back and forth to 
the ISS. What role will capitals play once the International 
Space Station reaches the end of its life?
    Mr. Gerstenmaier. Again, for the Commercial Crew Program 
and also the Commercial Cargo Program, the companies have an 
interest just beyond the NASA need. They're building these 
capsules. They'll own the intellectual property. They'll be 
able to operate these capsules for their own purposes. If this 
private station we discussed earlier is available, they can use 
this transportation system to deliver cargo to it. They can 
deliver a crew to it, et cetera, outside of the government. So 
this will essentially allow the private sector to go get 
transportation services on its own from these companies that 
we've enabled through these initial start-up contracts on ISS.
    Mr. Posey. That's great. The Space Shuttle and X-37, both 
examples of reusable spacecraft that lands on a runway also 
have had track records of success. Has NASA completely ruled 
out the use of reusable runway-capable vehicles for crew or 
cargo in the future?
    Mr. Gerstenmaier. The simple answer is no. I think in the 
case of the Orion vehicle, it's geared towards deep space 
activities where carrying wings makes it very difficult to 
reenter into the Earth's atmosphere. So the deep space vehicles 
will typically be a capsule-type vehicle, but for low-Earth 
orbit transportation, winged vehicles are very nice and have 
many advantages as we got to see through the Shuttle Program.
    Mr. Posey. Thank you, Mr. Chairman. I yield back.
    Chairman Babin. Thank you, and I'd like to now recognize 
the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman. Mr. Gerstenmaier, on 
the one hand we've had the three unfortunate losses that have 
been previously mentioned. On the other hand, it seems that our 
commercial space industry is getting ready to grow 
exponentially, adding great value to our economy and our 
civilization of the new satellites, internet, space tours of 
even Mars are talked about.
    Can you help us put these accidents in the proper 
perspective, especially compared to train and airline and 
automobile accidents, 30,000 deaths last year, by the way, NASA 
tragedies and all the transportation accidents in history? Are 
we looking at the relatively two or three that have come up in 
the right perspective compared to the last 150 years?
    Mr. Gerstenmaier. That's an interesting question. Again, I 
think the positive thing is that in all three of these cases, 
there's been no loss of life. So that says our basic processes 
and procedures are in place. So we protected the public. We 
protected the launch site. We did the right things.
    I think the important thing is to not get so fixated on the 
problem but how can we learn from this problem, right? As an 
emerging industry and developing new transportation system, the 
more we fly, there will be small problems. They're acceptable 
in this case. As we described earlier, the impacts are not 
devastating to Station. They hurt research, but they're still 
recoverable. The real tragedy will be if we don't learn from 
these events and we don't understand the engineering behind the 
failures and improve overall the industry.
    So I think just as the aviation industry has suffered a lot 
of failures throughout its history, the reason for its success 
today and the safety we get in the aircraft industry is a 
result of lessons learned and those lessons being applied to 
build better and safer aircraft. We need to do the same thing 
in the space industry. We need to take this learning from these 
events, internalize it, not be afraid of it, figure out how to 
make design changes, change the way we build spacecraft and 
build a more robust transportation system.
    So I see this as a painful but maybe somewhat necessary 
learning process. It's excellent to learn on cargo. We do not 
want to learn on crew. We will learn from cargo and apply those 
lessons to crew.
    Mr. Beyer. Well, thank you for your positive and your 
optimistic attitude which I very much appreciate.
    While you have the microphone though, the Aerospace Safety 
Advisory Panel, ASAP, has identified micro-meteoroid and 
orbital debris as a top safety risk facing ISS. How does NASA 
address these concerns about orbital debris?
    Mr. Gerstenmaier. We have shielding on board our Space 
Station and spacecraft that can protect for some debris. We 
cannot protect for all debris. We've recently implemented some 
changes to the Progress vehicle, the Progress launch that just 
occurred. It had new debris shields on that Progress vehicle. 
So we're continuing to improve the debris protection 
capability, and then we actively train on orbit. Just as we 
train terrestrially for fire drills, et cetera, we train for 
evacuation drills of Space Station in case we get hit by a 
piece of micro-meteoroid debris that penetrates a pressure 
shell. So we're prepared in that event. It is our highest risk 
when we look across the risk scenario. We protect it with the 
shielding levels that we can protect for it at this stage of 
Station's life.
    Mr. Beyer. All right. Thank you very much. Dr. Pawelczyk, 
you testified that during the 2000s, it resulted in NASA's 
priorities that the life, space life, and physical sciences 
were particularly hard hit, and a lot of scientists actually 
left the field. Do you have any concerns about the level of the 
workforce and expertise in that field today, especially as we 
get ready to think about man's missions to Mars?
    Dr. Pawelczyk. Thank you very much for the question. I'd 
say the short answer is no. You're absolutely right that those 
particular functions were very hard hit. We saw about an 80 
percent decrement in the science portfolios in fundamental 
biology and in the physical sciences. One of the great things 
that has happened since 2011 is that NASA has reinstituted a 
ground-based program. If you look at the numbers of people who 
are applying, they're in the hundreds for solicitation right 
now. There's active funding that is happening and bringing 
research up to the Station. So you're starting to see that 
coming back. But what's even more interesting about it is that 
you're seeing maybe some of the youngest scientists that have 
really schooled in the entrepreneurial spirit saying, hey, this 
is something I'd like to take an opportunity and check out.
    You know, the ISS Research Conference this week was about 
three times bigger than what it was just a year ago. So there's 
a growing spirit, and we need to continue to feed that spirit, 
and I think great things will happen as a result.
    Mr. Beyer. That's great, and thank you for your enthusiasm. 
Mr. Chair, I yield back.
    Chairman Babin. Yes, sir. Thank you. Now I'd like to 
recognize the gentleman from Oklahoma, Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman, and thank you to 
all of our panelists for coming and testifying before this 
Committee. Mr. Gerstenmaier, I appreciate your long and 
distinguished service at NASA going back to negotiating with 
the Russians on the Mir program and other things in the '90s, 
and that's really where I'd like to start today. When you think 
about right now, given the recent accidents that we've gone 
through, we are seeing how important our reliance is on things 
like the Russian Progress cargo spacecraft and of course the 
Russian Soyuz crew spacecraft. Given how the relationship has 
changed between the United States and Russia, and we've even 
heard that, you know, the Russians have talked about pulling 
out of the International Space Station, what is your judgment 
on how this relation can go forward? How is it going on the 
civil space side given the strained relations in other areas? 
Can you share with us your opinion on that?
    Mr. Gerstenmaier. Yes. On the civil space side, the 
relationship between the United States or between NASA and the 
Russians is very strong. We exchange data every day back and 
forth. We pass many commands to the Space Station, Russian 
commands through UAS. We use their assets as you've said for 
transportation reboost. We're very much mutually dependent upon 
each other for operations in space, and from a technical 
standpoint, the relationship is extremely strong, extremely 
transparent in spite of the governmental tensions between the 
two governments.
    So the challenge of human spaceflight kind of transcends a 
little bit of the toughness of the outside world, and we're 
working together extremely effectively with the Russians. The 
recent Progress loss, they've been sharing data with us. We've 
been working together to actively get ready to go fly crew on 
the 23rd of this month with the Russians, and they've been open 
with us, sharing data with us, helping us understand. They 
understand our needs. So the relationship is extremely strong 
between the civil space side.
    Mr. Bridenstine. How confident are you that they will 
continue the partnership beyond 2020?
    Mr. Gerstenmaier. Again, I think they're working through 
their governmental approval process. I think it's likely 
potentially by the end of this year when their federal space 
program gets approved that there will be an extension of the 
Russians to support the Space Station through at least 2024.
    Mr. Bridenstine. Mr. Elbon, we have heard the IG has a 
report indicating that the operations of the ISS are going to 
become more difficult because of the ability to take 
replacement parts to the International Space Station. Recently 
Boeing had a report that might not have contradicted but dealt 
with some of those issues. Can you share with us the Boeing 
position? They were suggesting that beyond 2020, things get 
really difficult. I think your report suggested 2028. Can you 
share with us how you're dealing with those issues?
    Mr. Elbon. Sure. Thanks for the question. The study that we 
did looked at things like the structural integrity of the 
elements on board, the ability to survive micro-meteorite kind 
of penetration and came to the conclusion that through 2028 is 
completely feasible relative to the hardware that's on orbit.
    The other part of the question is what about the logistics 
resupply to replace boxes that fail on orbit of computers, et 
cetera, and to supply the crew? And based on the logistics 
model that NASA's laid out and is using for the procurement of 
Commercial Resupply Services 2, you know, that kind of volume 
and up-mass is sufficient to support the logistics resupply 
that's necessary based on our analysis.
    So we think through 2028 is completely doable.
    Mr. Bridenstine. Thank you. Thank you for that testimony. 
Mr. Gerstenmaier, I appreciated Mr. Posey's question about, you 
know, what comes next after the ISS? Clearly whether it's 2020, 
2028, we could lose partners. We don't know when we might lose 
certain partners. We have to think about what comes next in 
LEO. And I would like to just follow up with that. Can NASA 
provide a report to Congress on its plans for a roadmap or a 
timeline for certifying and testing, you know, a post-ISS 
station in LEO? And I understand this question was about 
commercial and things like that, and certainly, that's of 
interest as well. But it would have to be tested and certified, 
and NASA would have to be involved, is that correct? Can you 
provide a timeline to Congress for that?
    Mr. Gerstenmaier. Again, I think the way we need to think 
about this is that the next private Space Station may not be--
in fact, I don't believe it will be as massive or as big as 
this Space Station we have today, with this International Space 
Station. There's been discussion by the SpaceX Corporation of 
using their crew transportation modules called Dragon Lab where 
they can do individual investigations. We've talked to Orbital 
about potentially using their cargo vehicle as a temporary 
space station in low-Earth orbit. So I think when we think 
about the private sector taking over, we don't need to think 
about this big massive investment of a space station. They can 
learn what research really benefits them. If it's in the 
pharmaceutical area, if it's in materials processing, if it's 
in protein crystal growth, they can build a unique capability 
to do that. It can be much smaller.
    So I think the private sector has the capability and can do 
that on their own, and again, I think NASA's role is to kind of 
move that human presence further. And we want to go into the 
region around the moon so there may be a habitation capability 
again supplied potentially by the private sector for cargo in 
the vicinity of the moon. But I think NASA's next focus is some 
kind of habitation capability potentially in the vicinity of 
the moon.
    Mr. Bridenstine. Roger that. I yield back.
    Chairman Babin. Thank you. And now I'd like to recognize 
the gentleman from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chairman, and thank you to the 
panelists. Mr. Administrator, it's good to see you. Some days 
you're here after we've had successes. Some days you're here 
after we've had some disappointments but appreciate the fact 
that we just keep moving forward. And it's not easy. You know, 
this is a risky business that you all are in, and we recognize 
that. And we don't want to have many disappointments. We want 
to have mostly successes.
    And I became more comfortable in understanding the kind of 
oversight that goes with the contractor-led investigation 
process, that in fact you are very involved and that there has 
to be some kind of sign-off as part of all of this because, 
oftentimes we have everybody looking over everybody else's 
shoulder. This seems to be a pretty sensible way to approach 
it, and I appreciate that.
    My questions are generally for you, Dr. Pawelczyk, and for 
you, Ms. Oakley, just really on what our research is doing on 
the Space Station that will help us as we move forward to 
sending our astronauts to Mars and for you so we have the 
researcher and the futurist, if you will, sitting next to the 
one who has to figure out how do you pay for it and what's the 
return.
    So I'd like to have you answer. Just generally, how do you 
see the Space Station advancing our goal of going to Mars? And 
I'd like to ask you, Ms. Oakley, what do you see in terms of 
the cost and the benefits from an accountant's point of view? 
So I'll just turn it over to you two.
    Dr. Pawelczyk. To make sure that Ms. Oakley has time, I'll 
be brief. There are really three issues that we're dealing with 
here. They are the biological changes that we see in this 
continuous reduced gravity environment. Bone and muscle are 
some of the largest. It is this very energetic radiation 
environment that we understand to a large extent from the 
standpoint of solid tumors, but when we start to look at 
interactions of things like effects in the brain, accelerated 
cardiovascular disease----
    Mr. Perlmutter. Is this part of why you have one Kelly on 
the Space Station and one Kelly on the ground?
    Dr. Pawelczyk. It is. It's an absolutely unique experiment 
because genetically they're identical. And so the changes in 
space give you a chance to really talk about what's the 
variation that's exclusively because of the space environment.
    And then of course there are the behavioral issues. You 
know, we're moving in that futuristic role. Right now the ISS 
really works in concert with the ground. When we begin to go to 
inter-planetary operations, those crew members are going to be 
working quite autonomously from the ground. It's just a matter 
of distance. And so how people function, independent of this 
planet, will be very different than how we operate on the ISS 
today.
    Mr. Perlmutter. Thank you.
    Ms. Oakley. The bottom line is NASA does need a robust 
science program on the International Space Station to be able 
to achieve those longer-term exploration goals. However, NASA 
has to be able to pay for it, and the Congress has to be able 
to pay for it. And that relies on a robust commercial 
participation in low-Earth orbit to be able to do some of the 
things that NASA needs to divert funding for the longer term 
exploration goals, too. Like Mr. Gerstenmaier was referring to, 
being able to establish those markets in low-Earth orbit to do 
some of the research that's going to be required to support 
those long-duration human exploration flights is going to be 
essential, and getting them to pay for it is also going to be 
essential because going to Mars is expensive.
    Mr. Perlmutter. So are you comfortable with the accounting 
and the auditing that's gone on to date on this program? I 
mean, the numbers?
    Ms. Oakley. On the International Space Station program? I 
haven't looked specifically at the accounting associated with 
that. What I will say is that I haven't seen any cost estimates 
associated with extending the International Space Station 
program beyond 2020, and I think that that's going to be key 
for the understanding of approving the funding and for 
everybody getting a very good understanding of what it's going 
to take to do the extension, to do the science that's required 
and to do it safely.
    Mr. Perlmutter. Okay. Thank you. Just one more question, 
and to Mr. Martin, we've had some incidents now where there 
have been some failures. We had some schools in Colorado that 
had experiments on both the Orbital launch and also most 
recently on the SpaceX, same school. They did it twice, and 
they lost both.
    How do we account for the cargo that's lost? Is there any 
compensation to those people or those schools or whatever?
    Mr. Martin. There is not. I think CASIS on the two flights 
of SpaceX and the Orbital failures lost over $650,000 of CASIS-
funded experiments on those flights. The poor school children 
in your district lost two sets; NASA, as Mr. Gerstenmaier 
indicated, over $100 million, that's gone. The taxpayers are 
paying for that.
    Mr. Perlmutter. Okay. Well, I thank you for your testimony. 
Thank you all for being here today, and I yield back.
    Chairman Babin. Thank you, sir. And now I'd like to 
recognize the gentleman from California, Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair. Just a couple of 
questions. Mr. Gerstenmaier, as a police officer who does 
investigations on accidents, we have seen a big change in our 
accident investigation over the last 50 years. I would expect 
to have seen a big change in investigations over space problems 
over the last 60 years.
    It hasn't been easy going to space in the 1960s. It isn't 
easy today. Can you give me an idea of how investigations go 
today and how we can either move through the process, making 
sure that we're going through and hitting the points and making 
sure that we're becoming safer as we move through the 
investigation, but also making sure we can go quicker because 
the faster we can move, the faster we can do more of this.
    Mr. Gerstenmaier. Kind of our underpinning is first of all 
we need to be careful we don't jump to conclusions or assume 
that we know what the failure is to begin with. So we do a very 
methodical process of where we gather all the data. We need to 
make sure the time synchronization of that data is all 
critical, and that's not easy. You know, these events occur in 
milliseconds. So if you have a camera that's running and the 
time is on that, you have to make sure that the time on that 
camera is identical to the telemetry that's coming from the 
spacecraft. You know, is the timing of when the event occurred 
recorded on the spacecraft versus recorded after it's received 
on the ground? So that radio delay time to get down is 
important.
    So the first thing is to gather the data, get it all time 
synchronous. Then you can start through the methodical process 
of building what we call a fault tree. So we essentially 
brainstorm. There are now electronic tools available that 
automatically build a fault tree for us. They ask inquisitive 
questions. You lay out all the potential failures that could 
occur, that could have contributed to the event, which ones 
have to occur maybe with another event. Then your team 
meticulously goes through and then crosses off each one of 
those events as they move forward.
    In terms of speed, what we're seeing here in the case of 
SpaceX is because they're a very much vertically integrated 
company. They do almost all of their work in-house. They 
immediately went to testing certain components. So even though 
they showed up on the fault tree, they said why don't we just 
go ahead and build up a test rig right now and we'll be 
prepared to go test.
    So even these short number of days between the event and 
now they're off, actually off in the laboratory doing some 
stress tests on some components that may contribute kind of as 
a parallel activity to this more methodical process I laid out.
    So I think the advantage and the speed piece is we can use 
tools. We can use analysis. We have software, and then we can 
do physical tests in a much faster time than we did before.
    Mr. Knight. No, and I agree. I talked to SpaceX several 
times since the incident, and Virgin and The Spaceship Company, 
after Spaceship II went down. And they were. They were jumping 
on it quickly, and they were learning things very fast. And it 
seems to me that the investigation process, and now with 
private companies being in fault, it seems like it is going a 
little bit faster. And that is a good thing. We want to make it 
safer. I know everyone wants to make it as safe as they 
possibly can, and that's the truth. Spaceflight still is in its 
infancy, and we're still learning and we will be for hundreds 
of years yet. And the faster we can get through some of these 
investigations, the faster we can move and progress.
    Doctor, I just had one question for you because I think 
that there was some good conversation there that we've got an 
astronaut working today, and we've got one on the ground. And I 
think that we'll get some good information there on what the 
effects are on the body when we actually send people to Mars on 
such a long, prolonged spaceflight.
    Can you give us an idea of what we're going to look at in 
the next 35 years, or maybe shorter as Administrator Bolden 
thinks, of when we are going to go to Mars and the effects on 
the body, not just the radiation but the time in space?
    Dr. Pawelczyk. So Mr. Knight, I apologize. I forgot my 
crystal ball this morning. But I'll do the best I can.
    Mr. Knight. You're a kinesiologist. You should know this.
    Dr. Pawelczyk. So we have mentioned, you know, a couple of 
those risks that we're seeing in the radiation realm. What's 
been really interesting to look at, if I talked to you ten 
years ago I would have told you that I expected to see about 50 
percent bone loss from a human being. We thought that that's 
essentially what gravity confers.
    We've seen with some of the implementation strategies for 
countermeasures on the ISS, that we're looking probably a lot 
better than that. I'm not willing to say that we have bone 
completely mitigated at this point. But some of the loading 
strategies are considerably better.
    We've also seen some newly-emergent risks, and that's 
always the problem. One particular with vision of astronauts. 
And that is actively being worked on by NASA. So there's been a 
number of ground-based research protocols. So this is a great 
example of how NASA quickly identified a problem, immediately 
engaged the scientific community to try to effect solutions.
    Mr. Knight. Very good. Thank you, Mr. Chair. I yield back.
    Chairman Babin. Yes, sir. I'd like to recognize the 
gentleman from Ohio, Mr. Johnson.
    Mr. Johnson of Ohio. Well, thank you, folks, and I'm a big 
fan of space exploration. I'm a big Buck Rogers fan, Star Trek, 
all of those kinds of things, growing up with them as a kid. I 
say that jokingly, but I can tell you that sitting in my living 
room floor between the summer of my ninth- and tenth-grade year 
and watching Neil Armstrong and Buzz Aldrin land on the moon, 
it captivated me as it did the rest of the world, and I've 
never gotten over that. So I have tremendous respect for what 
you folks do and the discoveries that we're making through our 
space exploration process.
    Mr. Gerstenmaier, just one question for you to start off 
with. The ISS has not yet been extended by Congress. However, 
the administration has proposed to extend to 2024. How many of 
our international partners have agreed to extension? And what 
steps is NASA taking to build a coalition of our international 
partners for an extension?
    Mr. Gerstenmaier. The Canadian Space Agency has agreed to 
extend to 2024. So we have one partner on board, that's the 
Canadian Space Agency, who does a lot of our robotic activities 
and have the robotic equipment aboard Station. As I described 
earlier, the Russians, potentially by the end of this year, 
could be on board with the extension to 2024. The Japanese are 
also actively looking at Station extension. They could do that 
again probably by the end of this year, possibly by the start 
of their next fiscal year which is in April of 2016, and the 
Japanese are actively working on that and we're working with 
them.
    Mr. Johnson of Ohio. All right.
    Mr. Gerstenmaier. And the European Space Agency, they're 
again working through their overall budget process. They've 
committed to support us on the Orion capsule as you know. The 
teams in Ohio are working with them on the European Service 
Module that sits underneath the Orion capsule. They're pretty 
much committed. They're not committed to Station yet. They will 
do probably that in 2017 formally, but they're doing all the 
activities of getting with all the member states and all the 
member countries to approve, and they see again tremendous 
benefit. It's just working through their big governmental 
process on the ESA side. So I think all partners are heading 
towards Station extension to 2024 in a varying timeframe.
    Mr. Johnson of Ohio. A quick follow-up. How significant of 
a partner are the Russians? I mean, we're pretty dependent upon 
the Russians right now in terms of getting there and back, 
correct?
    Mr. Gerstenmaier. Yes. We're dependent upon them for crew 
transportation. We also use them for altitude adjustments of 
Space Station. They provide the propellant that reboosts 
Station. They're dependent upon us for solar as ray or power 
generation. They also use us for commands and other activities. 
So we're kind of mutually dependent back and forth between 
both.
    Mr. Johnson of Ohio. Are you having any discussions--I'm 
sure you've heard the testimony of the potential incoming new 
Chairman of the Joint Chiefs who has stated that the Russians 
are our biggest security risk, security threat? I mean, we're 
kind of in a dichotomy with the Russians here. You guys 
concerned about that? And what's your back-up plan?
    Mr. Gerstenmaier. Again, I would say, first of all, from a 
civil space standpoint, as I described earlier we have a very 
strong relationship with the Russians and will continue to do 
that. I think we need to again look at what happens if the 
Russians pull out in certain key areas. As we're working hard 
on the Commercial Crew Program, we want to end our sole 
reliance on the crew transportation system as soon as we can, 
and funding for that is absolutely critical to get it in place 
so we can have a U.S. capability to augment the Russians in the 
December 2017 or so timeframe.
    So I think we're moving out on crew transportation. The 
other areas that I described where we're dependent, we have 
work-arounds and we can put systems in place to recoup that if 
we have to. But at the end, I think it's advantageous to us if 
we can cooperate. There's real advantages to us. That's the 
right way to go forward. These endeavors require of us all to 
work together, but we also need to be not so naive that if a 
problem occurs, that we can't continue on without a certain 
partner.
    Mr. Johnson of Ohio. Okay. All right. Well, you know, I 
guess, you know, we've had some failures with the commercial 
avenue. And I'm sure that you are, but I hope there's a lot of 
discussion going on because if we continue to experience 
similar failures like we had with the Commercial Cargo Program 
and the Russians were to back out, our options become smaller 
and fewer. Okay, Mr. Chairman. I yield back.
    Chairman Babin. Thank you. Now I'd like to recognize the 
gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And I 
remember when the Space Station was first approved. It only won 
by one vote in this Committee, one vote. Boy, I'm glad I voted 
for it. Don't disappoint me. Don't disappoint me now.
    Does anyone here know the level of CO<INF>2</INF> that is 
in the atmosphere of the Space Station? You have an internal 
atmosphere. What element do we put CO<INF>2</INF> in? There's a 
lot of talk about CO<INF>2</INF> in the planet now. What does 
CO<INF>2</INF> do in the Space Station?
    Mr. Gerstenmaier. I believe we've been holding it low 
because of the potential eye problems. I think we're running 
about three millimeters of mercury of partial pressure of 
CO<INF>2</INF> on board Station.
    Mr. Rohrabacher. How does that compare to the CO<INF>2</INF> 
that we have in our atmosphere here?
    Mr. Gerstenmaier. It's higher than the atmosphere we have 
in the room here, and we've typically allowed, prior to the 
intracranial pressure problems associated with the vision, we 
allowed it to go up on the order of six or so millimeters per 
mercury, and that's dramatically higher than the environment 
here. So it's higher CO<INF>2</INF> levels on board Station 
than we see here.
    Mr. Rohrabacher. Have there been any health-related 
problems, this increased level of CO<INF>2</INF> that 
astronauts breathe in during their time at the Space Station as 
compared to what they would breathe in here?
    Mr. Gerstenmaier. Yes, we're not sure but we think it could 
contribute to the intracranial pressure problem which causes 
the eye and vision problem we described. At higher elevated 
levels of CO<INF>2</INF> you can get headaches. You can have 
some other physiological problems. And again, we try to control 
that as low as we can. We have a Russian device that removes 
carbon dioxide. We have a U.S. device that removes carbon 
dioxide. Then we also have some absorbent material that also 
removes it. And then we have a next generation of system that 
will fly on the Orion capsule that's also on board Station, and 
we can use that also to remove CO<INF>2</INF>.
    Mr. Rohrabacher. Because we are actually exhaling CO<INF>2</INF> 
all the time, right? So we have to be--if you're in an enclosed 
environment, be very concerned with what the human body itself 
is exhaling.
    In terms of the future of Space Station, do we have plans 
to expand, put different elements onto the Space Station at 
this point?
    Mr. Gerstenmaier. Currently on the U.S. side, we just 
reconfigured the permanent multi-purpose module from one 
location to another location. That was to make room for a 
docking adaptor that we discussed earlier to let commercial 
vehicles come. That's about all we're going to do on the U.S. 
side. There's no major new additions coming. The Russians have 
talked about a solar power platform to provide some solar 
energy for their segment. The Russians have also talked about a 
multi-purpose logistics module, another research module that 
they may add to Station.
    Mr. Rohrabacher. Does the----
    Mr. Gerstenmaier. So the Russians may add some additional 
modules, but we on the U.S. side don't have any major additions 
planned.
    Mr. Rohrabacher. The Bigelow Company has actually invested 
a considerable amount of money in developing a new concept for 
space habitat, the inflatables. Is there any use of this 
technology?
    Mr. Gerstenmaier. Yes, it'll be added to Space Station next 
year. It's a demonstration capability. This is an expandable 
module that will be added to the outside of Station. It will 
stay there for about a year or year-and-a-half, and then we'll 
remove it from Station. Its purpose is to investigate the 
advantages of an expandable module. So instead of a rigid 
pressure shell, it's to understand what we can gain from the 
expandable technology. It has some very thick walls, so it may 
be better from a micro-meteoroid to penetration standpoint. It 
also may be better thermally. That needs to be looked at. And 
the acoustic environment may be better.
    So the idea is to get it on orbit, actually take those 
claims, test them on orbit with Space Station, use the unique 
capabilities of Station, confirm if that module technology is 
something we want to use going forward.
    Mr. Rohrabacher. And it might also be cheaper than the 
traditional way of building a space station which is something 
we should be concerned about.
    Let me just note two things, one is that orbital debris 
continues to be and always was and is an expanding concern. I 
believe that this is something NASA should look at, not just in 
terms of Space Station, but we should be thinking about 
international cooperative effort to just deal with the debris 
problem. That's something we need to, this Committee should be 
dealing with at least in the time ahead.
    And second and last of all, let me just note that your 
report on your cooperation with Russia during this time period 
when there are, how do you say, frictions going on between the 
United States and Russia, I think demonstrates a very wonderful 
aspect of space and that is once you get up there, you look 
back down on the Earth and some of those problems don't seem as 
important or we're able to put it in perspective, and I'm happy 
to hear that we are and that the Russians are putting these 
areas of friction in perspective to the point that we can work 
together and create a better world while we're doing it. So 
thank you very much for demonstrating that to all of us.
    Chairman Babin. Thank you. We have just had votes called, 
and I want to thank the witnesses for their valuable testimony 
and the members for all their questions. I'd really, if we 
would have had time, I would have liked to have gone through 
with a second round, but the record will remain open for two 
weeks for additional comments and for written questions from 
members. And it's our hope that the Office of Management and 
Budget will work more expeditiously with NASA to put together 
responses to these questions.
    The Committee is still waiting for NASA's responses to 
questions for the Commercial Crew hearing from six months ago. 
Mr. Gerstenmaier, please send back the message that these 
delays are not acceptable.
    The witnesses are excused, and this hearing is adjourned. 
Thank you.
    [Whereupon, at 10:45 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]
</pre></body></html>
